                                                                  ELAND SECURIT
                                               Office of Inspector General
                                           Atlanta Field Office - Auciit Division
                                                3003 Chamblee Tucker Rd
                                                    Atlanta, GA 30341



                                           March 24,2004



TO:               Kenneth 0. Burris, Jr.


FROM:


SUBJECT:          City of Raleigh, North Carolina
                  FEMA Disaster No. 1292-DR-DC
                  Audit Report No. DA- 18-04


The Office of Inspector General (OIG) audited public assistance hnds awarded to the
City of Raleigh, North Carolina. The objective of the audit was to determine whether
the City accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines.

The City received an award of $1.1 million from the North Carolina Division of
Emergency Management, a FEMA grantee, to remove debris as a result of Hurricane
Floyd in September 1999. The award provided 90 percent FEMA funding for 6 large
projects and 2 small projects.1 Audit work was limited to the $1,084,380 awarded and
claimed under the 6 large projects (see Exhibit).

The audit covered the period September 1999 through September 2002. During this
period, the City received $975,942 of FEMA funds under the 6 large projects.

The OIG performed the audit under the authority of the Inspector General Act of 1978,
as amended, and according to generally accepted government auditing standards. The
audit included tests of the City's accounting records, a judgmental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.


1     Acording to FEMA regulations, a large project costs $47,800 or more and a small project costs less
      than $47.800.
                                  RESULTS OF AUDIT 


The City9claim included $18,946 of questioned costs (FEMA share $l7,O5 1) resulting
from excessive and unsupported project charges.

A. Excess Charges. The City's claim included $10,713 of excess labor, equipment, and
   administrative charges, as follows:

     e   The City claimed $16,099 of labor costs for supervisory employees who drove
         trucks under debris removal Project 1572. Federal regulation (U.S. Office of
         Management and Budget Circular A-87, B, Para. 11(3)(b)) states that
         compensation for employees engaged in project work is considered reasonable to
         the extent that is consistent with that paid for similar work. However, the OIG
         determined that the claim was based upon the employees' normal rate of
         compensation rather than the $10,46 1 based on the nature of work performed
         under the FEMA project. Accordingly, the OIG questions the $5,638 of excess
         labor charges.

         Similar conditions occurred under debris removal Project 1573. In this case, the
         City's claim included the normal rate of pay ($9,004) for supervisory employees
         who drove trucks. However, the value of the work performed was $5,285. The
         grantee disallowed $2,088 of the excess charges as a result of a final project
         inspection. Accordingly, the remaining balance of $1,63 1 is questioned.

    e    The City claimed overtime labor costs of $1,584 for a supervisor who performed
         services under Project 1572. However, City policy (No. 300-5) prohibited
         supervisors from earning overtime pay. U.S. Office of Management and Budget
         Circular A-87 states that costs must be consistent with policies, regulations, and
         procedures that apply uniformly to both Federal awards and other activities of the
         governmental unit. Accordingly, the OIG questions the excess charges of
         $1,584.

         The City claimed $86,450 under Project 2721 for force account equipment use
         based on the FEMA Schedule of Equipment rates. However, the claim was
         overstated by $1,32 1 because the City inadvertently used an incorrect rate for
         certain pieces of equipment. Accordingly, the OIG questions the $1,32 1, as
         follows:

                        Houly           Correct       Excess
                         Rate           Hourly        Hourly   Hours         Excess
         Equi~ment      Charged          &
                                         &                     Charged       Charges
         Bucket Truck   $28.00          $19.00        $9.00    131.5         $1,183
         Bucket Truck    22.00           19.00         3.00     20.0             60
         !4 Ton Truck    14.25            7.50         6.75     11.5             78
         Total                                                               $1.321
    e   Based on the Stafford Act, the City is entitled to an administrative allowance
        based on a statutory formula to cover the costs associated with requesting,
        obtaining, and administering FEMA awards. Federal regulation (44 CFR
        206.228) limits funding for administrative costs to that allowance. However,
        under Project 272 1, the City claimed $539 of labor costs for employees who
        performed damage survey and assessment activities. The OIG questions these
        charges because they were associated with requesting FEMA funds and, as such,
        are covered by the statutory administrative allowance.

B. Unsupported Charges. Federal regulation (44 CFR 13.20) requires subgrantees to
   maintain supporting documentation for all charges to FEMA projects. However, the
   City's claim under Project 1263 included $8,233 of contract charges that were not
   supported by adequate documentation. The City claimed $1 17,722 for grinding cost
   of vegetative debris based on 62,953 cubic yards of debris removed by the
   contractor. However, the City had documentation (load tickets and daily activity
   reports) to support only 58,550 cubic yards of debris, or $109,489. Accordingly, the
   OIG questions the unsupported difference of $8,233.


                                RECOMMENDATION

 The OIG recommends that the Regional Director, in coordination with the grantee,
 disallow the $18,946 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

 The results of the audit were discussed with FEMA, grantee, and City officials on
 November 24,2003. City officials concurred with the findings.

 Please advise the Atlanta Field Office - Audit Division by June 24, 2004, of the actions
 taken to implement the OIG recommendation. Should you have any questions
 concerning this report, please contact David Kimble or me at (770) 220-5242.
                                                       Exhibit

               City of Raleigh, North Carolina
               FEMA-Disaster 1292-DR-NC
          Schedule of Claimed and Questioned Costs
                        Large Proiects

Project   Amount          Amount          Amount
Number    Awarded         Claimed         Questioned

1262 

1263 

1572 

1573 

2720 

272 1 

Total
